                      UNCLASSIFIED

  United States Department of State

and the Broadcasting Board of Governors

         Ofﬁce of Inspector General





                   Ofﬁce of Audit



  Independent Auditor’s

 Report on the Review of

Middle East Broadcasting 

Networks, Inc., Awards to 

    Three Contractors

Report Number AUD/IB-07-26, March 2007




                              IMPORTANT NOTICE


 This report is intended solely for the ofﬁcial use of the Department of State or the
 Broadcasting Board of Governors, or any agency or organization receiving a copy
 directly from the Ofﬁce of Inspector General. No secondary distribution may be
 made, in whole or in part, outside the Department of State or the Broadcasting
 Board of Governors, by them or by other agencies or organizations, without prior
 authorization by the Inspector General. Public availability of the document will be
 determined by the Inspector General under the U.S. Code, 5 U.S.C. 552. Improper
 disclosure of this report may result in criminal, civil, or administrative penalties.




                        UNCLASSIFIED

                                        UNCLASSIFIED




                                           SUMMARY


     At the request of the then Executive Director of the Broadcasting Board of
Governors (BBG), the Ofﬁce of Inspector General (OIG) reviewed awards the Mid­
dle East Broadcasting Networks, Inc. (MBN), made to three contractors. The review
was conducted to determine whether the awards, totaling about $9.3 million, were
competed in compliance with Ofﬁce of Management and Budget (OMB) Circular
A-110, Uniform Administrative Requirements for Grants and Other Agreements With Institu­
tions of Higher Education, Hospitals, and Other Non-Proﬁt Organizations, as required by the
grant agreement between BBG and MBN. In reviewing compliance, OIG’s objective
was also to identify any indication of favoritism, fraud, or other procurement impro­
prieties related to these awards. Finally, in conducting the review, OIG was cognizant
to general observations about MBN’s overall procurement process.

     OIG found that MBN did not compete awards to the three contractors reviewed
or adequately document its procurement activities in compliance with Circular A­
110. In reviewing compliance with the Circular, nothing came to OIG’s attention
to indicate favoritism, fraud, or other procurement improprieties related to these
awards. Awards made to two of the three contractors lacked adequate justiﬁcation
for sole-source selection, and awards made to the third contractor had initial compe­
tition but subsequent contracts were not properly competed. MBN’s noncompliance
with Circular A-110 occurred, in part, because of its interpretation of the Circular’s
requirements. In addition, at the time of the awards, MBN did not have formal
policies and procedures. MBN later developed a draft Corporate Policies and Procedures
Manual, which requires competition in compliance with OMB Circular A-110. OIG
believes that these policies and procedures address many of the procurement com­
petition deﬁciencies noted. OIG recommended that MBN implement the draft
Corporate Policies and Procedures Manual and develop a process to periodically monitor
compliance with procurement requirements. Additionally, OIG made general obser­
vations about MBN’s overall procurement process, which resulted in several informal
suggestions.

   MBN reviewed a draft of this report and agreed with the ﬁndings and recom­
mendations. To comply with report recommendations, MBN has initiated or pro­
posed solutions that will strengthen accountability and internal controls.




OIG Report No. AUD/IB-07-26, Review of Middle East Broadcasting Networks, Inc. - March 2007   1 .


                                        UNCLASSIFIED
                        UNCLASSIFIED





2 .   OIG Report No. AUD/IB-07-26, Review of Middle East Broadcasting Networks, Inc. - March 2007


                        UNCLASSIFIED
                                        UNCLASSIFIED




                                       BACKGROUND


    The International Broadcasting Act of 1994 established the International Broad­
casting Bureau and created BBG with oversight authority over all nonmilitary U.S.
government international broadcasting.1 The Emergency Wartime Supplemental Ap­
propriations Act, 2003, provided funds to BBG “for activities related to the Middle
East Television Network broadcasting to the Middle East and radio broadcasting to
Iraq.”2

    On April 25, 2003, the Middle East Television Network, Inc. (MTN), was in­
corporated as a nonproﬁt entity in the District of Columbia. The primary strategy
of MTN was to promote fair and balanced news and current affairs, freedom, and
democracy to the Middle East. In addition to reporting on regional and international
events, the channel broadcasts discussion programs; current affairs magazines; and
features on subjects such as health and personal ﬁtness, entertainment, sports, fash­
ion, and science and technology.

     BBG provided $10.7 million to MTN through a grant agreement on July 22,
2003, which included a requirement to comply with federal procurement regulations,
including OMB Circular A-110. The grant funded MTN’s operating expenses related
to providing Arabic broadcasting to the Middle East (TV Alhurra). Because of
congressional interest in broadcasting to the Middle East, MTN’s initial focus was on
beginning operations quickly. TV Alhurra began broadcasting on February 14, 2004,
approximately seven months after grant award.3 On April 28, 2005, MTN changed
its name to Middle East Broadcasting Networks, Inc.

   BBG is the sole provider of funding to MBN. According to the grant agree­
ment between BBG and MBN, the Board of Directors of MBN “shall consist of the
members of the BBG . . . and of no other members.”




1
    Pub. L. No. 103-236.

2
    Pub. L. No. 108-11.

3
 It normally takes approximately 18 months from initial concept and design to begin broadcast 

operations. 



OIG Report No. AUD/IB-07-26, Review of Middle East Broadcasting Networks, Inc. - March 2007       3 .


                                        UNCLASSIFIED
                        UNCLASSIFIED





4 .   OIG Report No. AUD/IB-07-26, Review of Middle East Broadcasting Networks, Inc. - March 2007


                        UNCLASSIFIED
                                        UNCLASSIFIED




            OBJECTIVES, SCOPE, AND METHODOLOGY


    At the request of BBG’s then Executive Director, OIG reviewed awards totaling
$9.3 million that MBN made to BrandCentral, Ltd., Quantum Communications, and
Capital Communications Group, Inc. For the three contractors, BBG requested that
OIG review the adequacy of contracting competition in accordance with the require­
ments of Circular A-110. MBN is responsible for complying with these require­
ments.

     This review was limited to the awards made to the three contractors noted.
OIG reviewed the grant agreement between BBG and MBN and identiﬁed key re­
quirements from Circular A-110 related to competition. OIG obtained and reviewed
the contracts awarded to these contractors and the related procurement activities to
determine compliance with the Circular. In addition, OIG reviewed MBN’s draft
Corporate Policies and Procedures Manual. OIG also reviewed related inspection reports
and certiﬁed public accountant reports.

    In reviewing compliance, OIG’s objective was also to identify any indication of
favoritism, fraud, or other procurement improprieties related to these awards. Fi­
nally, in conducting the review OIG was cognizant to general observations about
MBN’s overall procurement process.

    Fieldwork began in November 2005 and continued through March 2006, with
additional information obtained during October and November 2006. OIG’s Ofﬁce
of Audits, Property and Procurement Division conducted the review in accordance
with government attestation standards. A review is substantially less in scope than
an examination, the objective of which is the expression of an opinion. Accordingly,
OIG does not express such an opinion.

    On March 9, 2007, MBN provided written comments on the draft report, which
have been incorporated into the ﬁnal report where appropriate. MBN’s comments
are included in their entirety as Appendix A.




OIG Report No. AUD/IB-07-26, Review of Middle East Broadcasting Networks, Inc. - March 2007   5 .


                                        UNCLASSIFIED
                        UNCLASSIFIED





6 .   OIG Report No. AUD/IB-07-26, Review of Middle East Broadcasting Networks, Inc. - March 2007


                        UNCLASSIFIED
                                        UNCLASSIFIED




                                            RESULTS



    OIG found that MBN did not comply with competition requirements in­
cluded in Circular A-110. For instance, MBN did not compete most of the awards
to BrandCentral, Ltd., Quantum Communications, and Capital Communications
Group, Inc., and it did not fully document decisions related to the procurement
awards. The lack of compliance occurred, in part, because of MBN’s interpreta­
tion of the requirement for procurement competition. In addition, at the time of
the awards, MBN did not have formal procurement policies and procedures that
provided guidance to employees on how to comply with Circular A-110. As a result,
MBN had no assurance that it received the best prices for the services it procured
through the awards to these three contractors. After the awards, MBN drafted a
policy manual that included requirements for competition.

    The grant agreement between BBG and MBN requires the grantee to make “ev­
ery reasonable effort to achieve the purpose of the grant” in accordance with fed­
eral procurement requirements, including those of Circular A-110. Circular A-110,
subpart C, requires:
    • 	 all procurement transactions to be conducted in a manner to provide, to
        the maximum extent practical, open and free competition (Part 43),
    •      	
         written procurement procedures that include a requirement that solicita-
         tions for goods and services include clear technical requirements, evalua-
         tion factors, and performance expectations (Part 44),
    •     	
         documentation of cost or price analysis (Part 45), and
    •     	
         documentation  for the basis of contractor selection, justiﬁcation for lack
         of competition when competitive bids are not obtained, and the basis for
         award cost or price (Part 46).
    OIG found that MBN did not consistently compete or fully document the
awards it made to the three contractors. For example, awards made to BrandCentral,
Ltd., and to Quantum Communications lacked adequate justiﬁcation for the sole-
source selections. Although MBN competed one award to Capital Communications,
other awards to the same contractor were not properly competed. The details for
each contractor are discussed below.




OIG Report No. AUD/IB-07-26, Review of Middle East Broadcasting Networks, Inc. - March 2007   7 .


                                        UNCLASSIFIED
                                    UNCLASSIFIED



         BrandCentral, Ltd. MBN’s Board of Directors approved two contracts to
      BrandCentral, Ltd., on July 20, 2004. These contracts, totaling $1.6 million, were
      awarded without competition on July 21, 2004. The purpose of these contracts
      was to transform Alhurra’s website into a full-service branded website and develop
      Alhurra Iraq channel graphics.

          In a letter dated July 13, 2005, to the Chairman of the House Committee on In­
      ternational Relations, MBN’s Chairman stated that MBN decided to negotiate solely
      with BrandCentral “based on [BrandCentral’s] unique combination of corporate
      experience, capability to interact sensitively within the target culture on crucial com­
      munications issues, key personnel capabilities, technology expertise, location within
      the hub of the Middle East advertising world, security capabilities, and a reasonable
      price.” However, MBN’s contract ﬁles did not contain documentation required by
      Circular A-110 concerning why the contractor was selected, why there was no com­
      petition, and how the basis for the award cost or price was determined.

          Quantum Communications. Between February and September 2004, MBN
      awarded six contracts to Quantum Communications to provide ofﬁce space in
      Beirut, Lebanon, for MBN staff and supervision of the content production. These
      contracts, totaling more than $50,000, were awarded without competition.

          In the July 13 letter, MBN’s Chairman indicated that MBN chose Quantum
      Communications “as the sole source of these services because the company pos­
      sessed many unique production and cultural capabilities.” However, MBN’s contract
      ﬁles did not contain documentation required by Circular A-110 concerning why the
      contractor was selected, why there was no competition, and how the basis for the
      award cost or price was determined.

          In October 2004, MBN issued another noncompetitive contract to Quantum
      Communications for $4.4 million. The contracting ﬁles indicated that Quantum
      Communication was the only known company in the region that could do this work
      for MBN. Although MBN documented its basis for the selection of the contractor
      and justiﬁcation for no competition, it did not document how the basis for the award
      cost or price was determined.

          Capital Communications Group, Inc. On October 31, 2003, MBN awarded a
      noncompetitive six-month contract to Capital Communications Group, Inc., totaling
      approximately $100,000. The purpose of this sole-source contract was to provide
      orientation services for new MBN employees.




8 .               OIG Report No. AUD/IB-07-26, Review of Middle East Broadcasting Networks, Inc. - March 2007


                                    UNCLASSIFIED
                                        UNCLASSIFIED



     On April 1, 2004, MBN awarded a contract to Capital Communications Group,
Inc., totaling almost $200,000, for interpretation and language support services. The
award was based on a review of proposals from three bidders. The bid from Capi­
tal Communications was not the lowest. While MBN did have a price comparison
worksheet for the three bids, there was no documentation on how the contractor was
selected, as required by Circular A-110. In addition, OIG found that MBN’s solicita­
tion request did not adequately provide the technical requirements, evaluation fac­
tors, and performance requirements required by the Circular.

     In the July 13 letter, MBN’s Chairman stated that Capital Communications
Group, Inc., was selected on its technical ability “because of the superb quality of
its translation services and number of qualiﬁed translators, but also because of [its]
capability to perform 24 hours a day, 7 days a week, and because of [its] experience
translating . . . at the White House, the State Department, the Department of De­
fense, and other federal . . . agencies.” However, MBN’s contract ﬁles lacked docu­
mentation required by Circular A-110 concerning why the contractor was selected,
why there was no competition, and how the basis for the award cost or price was
determined.

    Between October 2003 and October 2005, MBN awarded an additional 13
contracts or purchase orders to Capital Communications Group, Inc., at a cost of
approximately $2.2 million, without competition. MBN’s contract ﬁles lacked docu­
mentation required by Circular A-110 concerning why the contractor was selected,
why there was no competition, and how the basis for the award cost or price was
determined. An MBN ofﬁcial said that the contract for interpretation and language
support services currently handled by Capital Communications would be reviewed
for future competition.

    OIG believes that MBN’s noncompliance with Circular A-110 occurred because
of its interpretation of the Circular’s requirements. In the July 13, 2005, letter,
MBN explained its procurement decisions, stating that Circular A-110 “encourages,
but does not require, full and open competition for MBN requirements and does
not prohibit non-competitive acquisitions.” Circular A-110 requires all procure­
ment transactions to be conducted in a manner to provide, to the maximum extent
practical, open and free competition. Although MBN’s sole-source procurements
may have been allowable for the reasons stated in the July 13 letter, MBN did not
document the justiﬁcations for these procurement activities in compliance with the
Circular.

     Additionally, OIG believes that MBN did not comply with the Circular because,
at the time of these procurement activities, MBN did not have formal policies and
procedures in place. MBN’s independent auditor noted in a report that “as a new

OIG Report No. AUD/IB-07-26, Review of Middle East Broadcasting Networks, Inc. - March 2007   9 .


                                        UNCLASSIFIED
                                     UNCLASSIFIED




       organization that quickly began full-scale operations, MTN implemented only very
       basic internal control procedures in selected areas related to purchase orders and
       travel.” 4

            As a result of its contracting practices, MBN had no assurance that it received
       the best prices or services. Since the Chairman and the Board of Directors of BBG
       and MBN are the same individuals and BBG and MBN are the grantor and the
       grantee, respectively, OIG believes that both organizations should exercise more
       diligence in monitoring MBN’s procurement transactions to avoid any appearance of
       impropriety.

           Other than the ﬁndings discussed in this report, no other signiﬁcant issues
       came to OIG’s attention during this limited review related to the competition of the
       awards to these three contractors. Additionally, in reviewing compliance with OMB
       Circular A-110, nothing came to OIG’s attention to indicate favoritism, fraud, or
       other procurement improprieties related to these awards.




       4
        Status of Funds and Internal Control Report with Analysis and Recommendations for Middle
       East Television Network, dated May 28, 2004.



10 .               OIG Report No. AUD/IB-07-26, Review of Middle East Broadcasting Networks, Inc. - March 2007


                                     UNCLASSIFIED
                                        UNCLASSIFIED




             PROCUREMENT PROCESS IMPROVEMENTS


    In addition to the recommendations described below, OIG made general obser­
vations about MBN’s overall procurement process, which resulted in several informal
suggestions. Speciﬁcally, OIG suggested strengthened controls by MBN for ap­
proval and monitoring of small purchases made through petty cash and credit cards.
MBN ofﬁcials were receptive to these suggestions and agreed to implement them.

     In response to the independent auditor’s ﬁndings noted, MBN updated its pro­
curement policy and related procedures to require adequate competition and in
October 2005 completed its draft Corporate Policies and Procedures Manual. During
OIG’s ﬁeldwork, MBN’s general counsel was reviewing the draft manual. OIG be­
lieves that MBN management should complete its review and implement these poli­
cies. Because of the issues raised in this report, OIG recommends that MBN review
the manual to ensure that it contains appropriate guidance to comply with Circular
A-110 and revise the manual as appropriate.

     In addition to the manual, MBN has started to review 15 major procurements
to determine which service contracts could be competed. Also, MBN is considering
initiating an internal auditing function that would provide independent consulting to
improve operations. The internal auditing function would address best practices in
the areas of compliance with company policies, laws, and regulations; operational ef­
ﬁciency and effectiveness; managing funds and costs; and corporate-wide risk man­
agement.

   Recommendation 1: OIG recommends that the Middle East Broadcasting
   Networks, Inc., implement the draft Corporate Policies and Procedures Manual, dat­
   ed October 27, 2005.


   MBN agreed with the recommendation, saying that the procurement policies
and procedures portion of the manual have been ﬁnalized and will be issued by
March 31, 2007. All administrative policies will be issued in ﬁnal form by
September 30, 2007.

    On the basis of MBN’s response, OIG considers the recommendation resolved.
It can be closed when MBN issues the manual in ﬁnal and provides OIG with a copy
of the manual.



OIG Report No. AUD/IB-07-26, Review of Middle East Broadcasting Networks, Inc. - March 2007   11 .


                                        UNCLASSIFIED
                                    UNCLASSIFIED



         Recommendation 2: OIG recommends that the Middle East Broadcasting
         Networks, Inc., develop a process to periodically monitor compliance with
         procurement requirements. This could be accomplished as part of its internal
         audit function.


           MBN agreed with the recommendation, saying that it will develop a process to
       enhance its monitoring of compliance with procurement regulations and anticipates
       having a process in place by September 30, 2007.

           On the basis of MBN’s response, OIG considers the recommendation resolved.
       It can be closed when MBN provides OIG with details on the process to periodically
       monitor compliance with procurement regulations.




12 .              OIG Report No. AUD/IB-07-26, Review of Middle East Broadcasting Networks, Inc. - March 2007


                                    UNCLASSIFIED
                                        UNCLASSIFIED





                                         APPENDIX A




OIG Report No. AUD/IB-07-26, Review of Middle East Broadcasting Networks, Inc. - March 2007   13 .


                                        UNCLASSIFIED
                         UNCLASSIFIED





14 .   OIG Report No. AUD/IB-07-26, Review of Middle East Broadcasting Networks, Inc. - March 2007


                         UNCLASSIFIED
                                        UNCLASSIFIED





OIG Report No. AUD/IB-07-26, Review of Middle East Broadcasting Networks, Inc. - March 2007   15 .


                                        UNCLASSIFIED
